HHS/OIG-Audit--"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1994, (A-04-95-04551)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1994," (A-04-95-04551)
September 29, 1995
Complete
Text of Report is available in PDF format (671 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the National Institute of Environmental Health Sciences (NIEHS)
Superfund financial activities for Fiscal Year 1994. The audit showed that NIEHS generally administered the fund according
to Superfund legislation. The report contains recommendations which will, if effectively implemented, strengthen the financial
controls over Superfund resources. The Public Health Service concurred with our recommendations and provided a plan of
corrective action.